No. 19-988
In the

Supreme Court of the United States
__________________

LIVING ESSENTIALS, LLC, ET AL.,
Petitioners,
v.
STATE OF WASHINGTON,
Respondent.
__________________
On Petition for Writ of Certiorari to the
Washington Court of Appeals, Division 1

__________________

BRIEF OF KENTUCKY, ALABAMA, ARKANSAS,
GEORGIA, INDIANA, LOUISIANA, MISSISSIPPI,
OKLAHOMA, SOUTH CAROLINA, SOUTH DAKOTA,
TEXAS, UTAH, AND WEST VIRGINIA AS AMICI
CURIAE SUPPORTING PETITIONERS

__________________

DANIEL CAMERON
S. CHAD MEREDITH
Attorney General of Kentucky
Solicitor General
Counsel of Record
BARRY L. DUNN
Deputy Attorney General
MATTHEW F. KUHN
Deputy Solicitor General
Office of the Kentucky
Attorney General
BRETT R. NOLAN
700 Capital Avenue
Special Litigation Counsel
Suite 118
Frankfort, Kentucky 40601
(502) 696-5300
chad.meredith@ky.gov
Counsel for Amici Curiae
March 30, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . ii
INTERESTS OF AMICI CURIAE . . . . . . . . . . . . . . . 1
SUMMARY OF THE ARGUMENT. . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
I.

Commercial speech is at least as valuable to
American life as other forms of speech
protected under the First Amendment. . . . . . 5

II.

There is no sound reason for evaluating
commercial-speech restrictions under
anything less than strict scrutiny. . . . . . . . . 11

III.

The Court should grant certiorari to hold
that strict scrutiny applies to commercialspeech restrictions and to end the
inconsistencies caused by the Central
Hudson test . . . . . . . . . . . . . . . . . . . . . . . . . . 16

IV.

Applying strict scrutiny to commercialspeech restrictions will not inhibit states’
abilities to protect consumers . . . . . . . . . . . . 20

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

ii
TABLE OF AUTHORITIES
CASES
44 Liquormart, Inc. v. Rhode Island,
517 U.S. 484 (1996). . . . . . . . . . . . . . . . . . . . 12, 17
Alexander v. United States,
509 U.S. 544 (1993). . . . . . . . . . . . . . . . . . . . . . . 19
Bates v. State Bar of Ariz.,
433 U.S. 350 (1977). . . . . . . . . . . . . . . . . . . . . . . 10
Bd. of Trustees of State Univ. of N.Y. v. Fox,
492 U.S. 469 (1989). . . . . . . . . . . . . . . . . . . . . . . 11
Brown v. Hartlage,
456 U.S. 45 (1982). . . . . . . . . . . . . . . . . . . . . . . . 21
Central Hudson Gas & Electric Corp. v. Public
Serv. Comm’n of N.Y.,
447 U.S. 557 (1980). . . . . . . . . . . . . . . . . . . passim
EMW Women’s Surgical Ctr., P.S.C. v. Beshear,
920 F.3d 421 (6th Cir. 2019). . . . . . . . . . . . . . . . 17
Gertz v. Robert Welch, Inc.,
418 U.S. 323 (1974). . . . . . . . . . . . . . . . . . . . . . . 22
Illinois ex rel. Madigan v. Telemarketing
Assocs., Inc., 538 U.S. 600 (2003) . . . . . . . . . . . . 19
Kasky v. Nike, Inc.,
45 P.3d 243 (Cal. 2002). . . . . . . . . . . . . . . . . . . . 20
N.Y. Times v. Sullivan,
376 U.S. 254 (1964). . . . . . . . . . . . . . . . . . . . . . . 22

iii
Nat’l Inst. of Family & Life Advocates v. Becerra,
__ U.S. __, 138 S. Ct. 2361 (2018) . . . . . . . . 17, 25
Nike, Inc. v. Kasky,
539 U.S. 654 (2003). . . . . . . . . . . . . . . . . . . . . . . 20
Reed v. Town of Gilbert,
576 U.S. 155, 135 S. Ct. 2218 (2015) . . . 12, 17, 22
Smith v. Gen. Motors Corp.,
979 S.W.2d 127 (Ky. Ct. App. 1998). . . . . . . . . . 18
Sorrell v. IMS Health, Inc.,
564 U.S. 552 (2011). . . . . . . . . . . . . . . . . . . . 10, 23
State v. Living Essentials, LLC,
436 P.3d 857 (Wash. Ct. App. 2019). . . . . . . . 4, 18
United States v. Alvarez,
567 U.S. 709 (2012). . . . . . . . . . . . . . . . . . . . 21, 22
Va. State Bd. of Pharmacy v. Va.
Citizens Consumer Council,
425 U.S. 748 (1976). . . . . . . . . . . . . . . . . . . passim
Zauderer v. Office of Disciplinary Counsel of the
Supreme Court of Ohio,
471 U.S. 626 (1985). . . . . . . . . . . . . . . . . . . . . . . 25
CONSTITUTION AND STATUTES
U.S. Const. amend. I . . . . . . . . . . . . . . . . . . . . passim
Ky. Rev. Stat. 367.170 . . . . . . . . . . . . . . . . . . . . . . . 21
Tex. Bus. & Com. Code § 17.46(a) . . . . . . . . . . . . . . 21

iv
OTHER AUTHORITIES
Jonathan H. Adler, Compelled Commercial Speech
and the Consumer “Right to Know”, 58 Ariz. L.
Rev. 421 (2016) . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Jonathan H. Adler, Persistent Threats to
Commercial Speech, 25 J.L. & Pol’y 289
(2016). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9, 24
Jonathan H. Adler, Robert Bork and Commercial
Speech, 10 J.L. Econ. & Pol’y 615 (2014) . . . . . 7, 9
Bernard Bailyn, The Ideological Origins of the
American Revolution (Enlarged ed. 1992) . . . . . . 6
Troy L. Booher, Scrutinizing Commercial Speech,
15 Geo. Mason U. Civ. Rts. L.J. 69 (2004) . . . . . 13
Robert H. Bork, Activist FDA Threatens
Constitutional Speech Rights, 11 Legal
Backgrounder, no. 2 (1996). . . . . . . . . . . . . . . . . . 7
John E. Clafee, Fear of Persuasion: A New
Perspective on Advertising and Regulation
(1997). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
A. Lee, The Daily Newspaper in America (1937) . . . 6
Donald E. Lively, The Supreme Court and
Commercial Speech: New Words with an Old
Message, 72 Minn. L. Rev. 289 (1987) . . . . . . . . 13
Frank Luther Mott, American Journalism—A
History of Newspapers in the United
States Through 250 Years: 1690–1960 (3d ed.
1963) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

v
Robert Post, The Constitutional Status of
Commercial Speech, 48 UCLA L. Rev. 1
(2000). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Frank Presbrey, The History & Development of
Advertising (1929). . . . . . . . . . . . . . . . . . . . . . . 7, 8
President Calvin Coolidge, Address before the
American Association of Advertising Agencies
(Oct. 27, 1926), available at https://memory.loc.
gov/ammem/coolhtml/coolbibTitles02.html . . . . . 8
Martin H. Redish & Kyle Voils, False Commercial
Speech and the First Amendment:
Understanding the Implications of the
Equivalency Principle, 25 Wm. & Mary Bill Rts.
J. 765 (2017) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
George J. Stigler, The Economics of Information, 69
J. Pol. Econ. 213 (1961) . . . . . . . . . . . . . . . . . . . . 8
Dietlind Stolle, Marc Hooghe & Michelle Micheletti,
Politics in the Supermarket:
Political
Consumerism as a Form of Political
Participation, 26 Int’l Pol. Sci. Rev. 245 (2005). . 9
Adam Thierer, Advertising, Commercial Speech,
and First Amendment Parity, 5 Charleston L.
Rev. 503 (2011) . . . . . . . . . . . . . . . . . . 8, 9, 10, 14
Daniel E. Troy, Advertising: Not “Low Value”
Speech, 16 Yale J. on Reg. 85 (1999) . . . . . . 6, 7, 8
James Playsted Wood, The Story of Advertising
(1958). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

1
INTERESTS OF AMICI CURIAE1
The amici States have an interest in protecting
their citizens. This means not just guarding their
citizens against those who intend to do physical or
financial harm to them, but also safeguarding their
constitutional rights.
These interests often
complement each other, but sometimes they threaten
to collide. In the commercial arena, the States’
obligation to protect consumers from unscrupulous
business practices has the potential—if carried too
far—to collide with businesses’ First Amendment
rights to advertise and to communicate with
consumers. The amici States generally have avoided
this conflict in their consumer-protection laws by
prohibiting only false, misleading, or deceptive
commercial speech, and by placing the burden of proof
on themselves rather than requiring businesses to
prove that their communications are not false,
misleading, or deceptive.
The decision below, however, creates a violent
collision between consumer-protection laws and
businesses’ First Amendment speech rights. In the
wake of the Washington Court of Appeals’ decision, the
State of Washington can now impose liability on a
business—not because the state has proven the
business’s speech to be false or misleading—but simply
because the business has not substantiated the
truthfulness of its statements to the state’s satisfaction
before speaking.
The application of this “prior

1

Amici have notified counsel for all parties of their intention to file
this brief. Sup. Ct. Rules 37.2(a), 37.4.

2
substantiation” rule is unconstitutional. It is hard to
imagine a more serious threat to businesses’ First
Amendment rights.
This threat implicates the amici States’ interests in
a number of ways. First, a threat to First Amendment
rights anywhere is a threat to First Amendment rights
everywhere. The amici States therefore desire to be
heard on this matter to ensure that their citizens’
rights are not threatened. Second, and from a more
practical standpoint, the amici States are home to
countless companies that do business from coast to
coast, including in the State of Washington. If these
businesses want to continue doing business in
Washington, they will now have to adjust their
behavior to comply with Washington’s newfound—and
oppressive—prior-substantiation test. No longer can
these businesses count on avoiding liability simply by
ensuring that their communications are neither false
nor misleading. The amici States have a strong
interest in protecting their domestic businesses from
this burden.
SUMMARY OF THE ARGUMENT
Commercial speech is speech. It has as much
societal value as other types of speech. Accordingly,
restrictions on commercial speech should be evaluated
under strict scrutiny rather than the lower level of
scrutiny that is currently applied under this Court’s
precedents.
American life, from the colonial era to the present,
has relied heavily on commercial speech. Indeed, this
Court has acknowledged that citizens ordinarily have

3
a greater interest in commercial speech than even the
most important political news of the day. Given the
historical—and present-day—significance of
commercial speech, there is no reason why attempts to
restrict it should be evaluated under anything but
strict scrutiny. And, yet, they are only evaluated under
a medium level of scrutiny. This is not justifiable.
The Court has allowed commercial speech to be
more easily restricted for two reasons: (1) it is
supposedly more susceptible to verification than other
forms of speech; and (2) due to its profit motive,
commercial speech is supposedly more durable than
other forms of speech. But these rationales do not
withstand scrutiny. Commercial speech is no more
verifiable than other forms of speech, especially in light
of modern marketing strategies. Moreover, many types
of speech that receive the highest level of protection are
far more durable than commercial speech.
Nevertheless, commercial-speech restrictions
continue to be evaluated under the intermediatescrutiny balancing test that this Court established in
Central Hudson Gas & Electric Corp. v. Public Service
Commission of New York, 447 U.S. 557 (1980). This
multi-factor test is inconsistent with the Court’s most
recent free-speech decisions. Further, it lends itself to
inconsistent results and has created an atmosphere in
which some states have felt free to impose overly
burdensome restrictions on the content of commercial
speech. The State of Washington has done so in this
instance by punishing the Petitioners’ speech not on
the basis that it is actually false or misleading, but
merely on the basis that the Petitioners failed to

4
substantiate the truth of their statements to
Washington’s satisfaction prior to making them. See
State v. Living Essentials, LLC, 436 P.3d 857 (Wash.
Ct. App. 2019).
Washington’s application of the prior-substantiation
rule is inconsistent with the First Amendment for a
number of reasons. But, the larger doctrinal problem
here is that Washington’s adoption of this
unconstitutional rule was made possible by the
improperly low level of protection given to commercial
speech and the malleable nature of the Central Hudson
test.
It is past time for the Court to discard the
indeterminate Central Hudson test and bring the
treatment of commercial speech into line with the rest
of the Court’s jurisprudence on content-based speech
regulation. That is, the Court should apply strict
scrutiny to content-based restrictions on commercial
speech. This case presents an excellent opportunity not
just for the Court to put an end to the inconsistent
results that the Central Hudson test permits, but to
also replace a malleable, multi-factor balancing test
with a familiar standard that is easily applied and
much more easily understood.
Adopting strict scrutiny for commercial-speech
restrictions will not inhibit states’ ability to protect
consumers from unscrupulous actors who would
defraud or mislead them. False and misleading speech
designed to harm others is generally not protected by
the First Amendment. And, in any event, traditional
restrictions on false, misleading, and deceptive trade
practices should satisfy strict scrutiny. Moreover,

5
applying strict scrutiny to commercial-speech
restrictions will not impact the validity of laws
mandating certain factual disclosures in commercial
and professional transactions, like informed-consent
requirements.
ARGUMENT
I.

Commercial speech is at least as valuable
to American life as other forms of speech
protected under the First Amendment.

Commercial speech helped fuel the American
Revolution. The years leading up to the Revolution
witnessed an unprecedented growth in public
communication.
Every medium of written expression was put to
use. The newspapers, of which by 1775 there
were thirty-eight in the mainland colonies, were
crowded with columns of arguments and
counter-arguments appearing as letters, official
documents, extracts of speeches, and sermons.
Broadsides—single sheets on which were often
printed not only large-letter notices, but in three
or four columns of minuscule type, essays of
several thousand words—appeared everywhere;
they could be found posted or passing from hand
to hand in the towns of every colony. Almanacs,
workaday publications universally available in
the colonies, carried . . . a considerable freight of
public comment.
Above all, there were
pamphlets: booklets consisting of a few printer’s
sheets, folded . . . and sold . . . usually for a
shilling or two.

6
Bernard Bailyn, The Ideological Origins of the
American Revolution 1–2 (Enlarged ed. 1992). And
what made all of this possible? Commercial speech.
The explosive growth in the dissemination of
revolutionary ideas was inextricably linked with the
growth of advertising. See Daniel E. Troy, Advertising:
Not “Low Value” Speech, 16 Yale J. on Reg. 85, 97
(1999). “Without . . . advertisements, the colonial press
so important to the Revolutionary cause would almost
certainly have been less vibrant, if it would have
existed at all.” Id. at 98. As remains true today,
“[a]dvertising represented the chief profit margin in the
newspaper business” during the colonial era. Id.
(quoting Frank Luther Mott, American Journalism—A
History of Newspapers in the United States Through
250 Years: 1690–1960 56 (3d ed. 1963)).
Advertising was so important in the colonial era and
early Republic that most newspapers reserved nearly
all of “page one for advertising, sometimes saving only
one column of it for reading matter.” Id. at 99 (quoting
Mott at 157). And, “[o]ften, more than half of the
standard colonial newspaper was taken up by
advertising.” Id. For example, 70% of the New York
Mercury consisted of advertising in 1766. Id. (citing A.
Lee, The Daily Newspaper in America 32 (1937)).
But commercial speech was not important in the
Revolutionary era just because it provided funding that
made political and philosophical speech possible.
Rather, commercial speech was beneficial in and of
itself. It was understood “to have independent value in
educating and informing the reading public.” Id. at
100.

7
“To the founding generation, ‘ads were news.’”
Jonathan H. Adler, Robert Bork and Commercial
Speech, 10 J.L. Econ. & Pol’y 615, 620 (2014) (quoting
Robert H. Bork, Activist FDA Threatens Constitutional
Speech Rights, 11 Legal Backgrounder, no. 2, at 2
(1996)). “Advertisements had as much interest as the
news columns, perhaps greater interest, for they were
more intimately connected with the readers’ daily life
than were the foreign items that made up so large a
part of the news.” Troy, supra, 16 Yale J. on Reg. at
100 (quoting Frank Presbrey, The History and
Development of Advertising 154 (1929)).
The country’s interest in commercial speech
continued unabated throughout the nineteenth
century. “In 1847, one publisher stated that advertising
had a news-like quality that had as much appeal to
readers as did reporting on the day’s events.” Id. at
110 (citing James Playsted Wood, The Story of
Advertising 159–60 (1958)). And, “in 1869, the New
York Herald typically held eight columns of editorial
comment, thirty-eight columns of news, and fifty
columns of advertising.” Id. (emphasis added) (citing
Wood, supra, at 169). By the latter half of the
nineteenth century, it was unmistakable that
“[a]dvertising had become a major part of American
culture.” Id. at 111.
And nothing has changed since then. If anything,
commercial speech has only grown in value to the
American people. For instance, commercial speech
played a critical role in America’s efforts in World War
I, helping “to sell $24 billion in war bonds to twentytwo million Americans and raise $400 million for the

8
Red Cross.” Id. at 116 (citing Presbrey, supra, at 565).
Shortly thereafter, in 1926, President Coolidge
observed that “[t]he preeminence of America in
industry . . . has come very largely through mass
production. Mass production is only possible where
there is mass demand. Mass demand has been created
almost entirely through the development of
advertising.” President Calvin Coolidge, Address
before the American Association of Advertising
Agencies (Oct. 27, 1926) (available at https://memory.loc.
gov/ammem/coolhtml/coolbibTitles02.html).
More recently, commentators and scholars have
extolled the informative and educational value of
commercial speech. Nobel laureate economist George
Stigler noted that commercial speech is “an immensely
powerful instrument for the elimination of ignorance.”
George J. Stigler, The Economics of Information, 69 J.
Pol. Econ. 213, 220 (1961). It has the “‘power to
improve consumer welfare’ since it ‘is an efficient and
sometimes irreplaceable mechanism for bringing
consumers information that would otherwise languish
on the sidelines.”
Adam Thierer, Advertising,
Commercial Speech, and First Amendment Parity, 5
Charleston L. Rev. 503, 507 (2011) (quoting John E.
Clafee, Fear of Persuasion: A New Perspective on
Advertising and Regulation 96 (1997)). “In other
words, advertising educates.” Id. at 508. “It . . . raises
general awareness about new classes or categories of
goods and services. It helps citizens in their capacity
as consumers to become better aware of the options at
their disposal and the relative merits of those choices.”
Id.

9
Further, the information conveyed in commercial
speech does not just influence consumers in their
commercial transactions; it also influences political
debates. “Much commercial speech is imbued, if not
saturated, with normative and political content.”
Jonathan H. Adler, Persistent Threats to Commercial
Speech, 25 J.L. & Pol’y 289, 297 (2016) (citing Jonathan
H. Adler, Compelled Commercial Speech and the
Consumer “Right to Know”, 58 Ariz. L. Rev. 421,
429–31 (2016)). This naturally follows from—or
perhaps leads to—the reality that “[c]ommercial
decisions are often freighted with political content, as
when a retailer refuses to stock a dairy product due to
the treatment of livestock or when a manufacturer
decides to source its materials from a given country or
source of labor.” Adler, supra, 10 J.L. Econ. & Pol’y at
629. Likewise, “[c]onsumption can be a political act
and consumption decisions can play a role in a broader
discourse with political implications.” Id. at 630. As a
result, “much commercial speech relates to and informs
political discourse about the role of government in
economic life, the extent to which certain activities
should be regulated, and so on.” Id. (citing Dietlind
Stolle, Marc Hooghe & Michelle Micheletti, Politics in
the Supermarket: Political Consumerism as a Form of
Political Participation, 26 Int’l Pol. Sci. Rev. 245
(2005)).
And there are still yet other ways in which
commercial speech adds important value to society.
“Advertising also keeps markets competitive by
keeping competitors on their toes and forcing them to
constantly respond to challenges by rivals who are
offering better or cheaper services.” Thierer, supra, 5

10
Charleston L. Rev. at 511. This yields untold benefits
to consumers as it drives up the quality of goods and
services and drives down prices. In this respect,
commercial speech is essential to the proper
functioning of free markets. See id.
Significantly, this Court has also recognized the
tremendous value of commercial speech. In Virginia
State Board of Pharmacy v. Virginia Citizens Consumer
Council, Inc., the Court held:
So long as we preserve a predominantly free
enterprise economy, the allocation of our
resources in large measure will be made through
numerous private economic decisions. It is a
matter of public interest that those decisions, in
the aggregate, be intelligent and well informed.
To this end, the free flow of commercial
information is indispensable.
425 U.S. 748, 765 (1976) (citations omitted). And the
Court has repeatedly acknowledged that “a ‘consumer’s
concern for the free flow of commercial speech often
may be far keener than his concern for urgent political
dialogue.’” Sorrell v. IMS Health, Inc., 564 U.S. 552,
566 (2011) (quoting Bates v. State Bar of Ariz., 433 U.S.
350, 364 (1977)). This is no small matter as it is
universally understood that the high value of political
speech places it at the core of First Amendment
protection.
Given the overwhelming and critical value that
commercial speech has contributed to American life
from the colonial era to the present day, one would
expect restrictions on commercial speech to be

11
subjected to the highest level of scrutiny applied under
the First Amendment. And, yet, they are not. This is
inexplicable.
II.

There is no sound reason for evaluating
commercial-speech under anything less
than strict scrutiny.

Instead of applying strict scrutiny to restrictions on
commercial speech, the Court determined in Central
Hudson Gas & Electric Corp. v. Public Service
Commission of New York that an intermediate level of
scrutiny would apply. 447 U.S. at 562–63. The Central
Hudson analysis is a multi-factor balancing test that
first asks whether the speech at issue concerns a lawful
activity and is not misleading. Id. at 566. If speech
concerns unlawful activity or is misleading, then it
receives no First Amendment protection at all and may
be prohibited outright. See id. Otherwise, a reviewing
court proceeds to the next three factors. Those factors
ask whether: (1) the asserted governmental interest is
substantial; (2) the regulation directly advances the
governmental interest asserted; and (3) the regulation
is not more extensive than is necessary to serve that
interest. Id. The Court subsequently refined the last
factor to clarify that it is not a least-restrictive-means
test, but merely requires “a ‘fit’ between the
legislature’s ends and the means chosen to accomplish
those ends—a fit that is not necessarily perfect, but
reasonable; that represents not necessarily the single
best disposition but one whose scope is in ‘proportion to
the interest served.’” Bd. of Trustees of State Univ. of
N.Y. v. Fox, 492 U.S. 469, 480 (1989) (citations
omitted).

12
On its face, there is nothing remarkable about the
first step of the Central Hudson test. There has never
been a general constitutional rule protecting fraud in
commercial transactions or establishing a right to
market illegal products. But the last three parts of the
test are an aberration. Content-based restrictions on
other forms of protected speech are normally subjected
to strict scrutiny. See Reed v. Town of Gilbert, 575 U.S.
155, 135 S. Ct. 2218, 2226 (2015).
The Court has justified this disparate treatment for
commercial speech on the ground that there is a
“‘commonsense’ distinction” between commercial
speech and other varieties of speech. Cent. Hudson,
447 U.S. at 562. And what are those “commonsense”
distinctions? It appears that only two have ever been
identified:
(1) that commercial speech is more
objectively verifiable than other forms of speech; and
(2) that commercial speech is more durable than other
forms of speech. See 44 Liquormart, Inc. v. Rhode
Island, 517 U.S. 484, 523 n.4 (1996) (Thomas, J.,
concurring in part and concurring in the judgment);
Cent. Hudson, 447 U.S. at 564 n.6; Va. State Bd. of
Pharmacy, 425 U.S. at 771 n.24. Neither of these
purported distinctions, however, can withstand
scrutiny.
1. It is demonstrably false that commercial speech
is more objectively verifiable than other varieties of
speech that receive greater First Amendment
protection. The truth is that the vast majority of
modern commercial speech cannot be easily verified.
Over the last century, commercial speech has largely
shifted toward communicating general impressions and

13
images that are not susceptible to easy verification—or
any verification at all, for that matter. Take, for
instance, the various slogans Coca-Cola has used over
the years, including “Things go better with Coke,” “I’d
like to buy the world a Coke,” and “The Coke side of
life.” How would anyone ever go about objectively
verifying the truth of those statements? Such speech
is no more verifiable than a statement like
“Representative X deserves to be re-elected.”
Moreover, even in the occasional instances when
commercial speech can be easily verified, the fact of
verifiability still does not distinguish it from other
forms of speech. For example, no one would dispute
that an advertisement stating that a dozen eggs can be
purchased at a certain grocery store for a certain price
can be readily verified. But this verifiability is not
unique to commercial speech. Many types of speech
are just as susceptible to such verification. For
example, a statement that a legislator voted for or
against a particular piece of legislation is just as easily
verifiable. Thus, commercial speech as a category
cannot be truly distinguishable from other varieties of
speech simply because the most basic forms of
commercial speech might be verifiable. See Troy L.
Booher, Scrutinizing Commercial Speech, 15 Geo.
Mason U. Civ. Rts. L.J. 69, 72 (2004); Donald E. Lively,
The Supreme Court and Commercial Speech: New
Words with an Old Message, 72 Minn. L. Rev. 289, 297
(1987).
Consider also the modern trend toward marketing
that looks more like art or entertainment than
traditional advertising. In 2001–02, for instance,

14
automobile manufacturer BMW hired several famous
movie directors to produce a series of eight short films
starring British actor Clive Owen and prominently
featuring BMW products. See Thierer, supra, 5
Charleston L. Rev. at 517. The films quickly “became
an Internet and DVD sensation.” Id. “If those eight
short BMW films had been produced for widespread
cinematic release, there would be no question that
strict scrutiny would apply to any efforts to regulate
them.” Id. Nevertheless, there is no reason to believe
that any restrictions on those films would be evaluated
under any standard other than the Central Hudson
test. But this makes no sense. “Why should lower
scrutiny be applied simply because the films were
produced at the request of an automobile manufacturer
to showcase [its] new products?” Id. The truth of any
messages communicated by those films is no more
verifiable because the films were produced by BMW
than if they had been produced independently.
2. There is also no justification for concluding that
restrictions on commercial speech should be evaluated
under a lower level of scrutiny because commercial
speech is somehow more durable than other forms of
speech. The durability rationale stems from the
misplaced notion that commercial speech is uniquely
hard to chill because it is motivated by a desire for
profits. See Va. State Bd. of Pharmacy, 425 U.S. at 771
n.24. Just like the belief that commercial speech is
inherently more verifiable than other speech, this
notion is mistaken.
As an initial matter, it is anything but clear that
commercial speech is, in fact, durable. Indeed, the

15
reality appears to be quite the opposite. As evidenced
by the throngs of compliance officers and in-house
lawyers employed by modern businesses, the truth is
that commercial speakers “are often likely to be among
the most risk averse of speakers, always concerned
about the possibility of government penalization for
their actions.” Martin H. Redish & Kyle Voils, False
Commercial Speech and the First Amendment:
Understanding the Implications of the Equivalency
Principle, 25 Wm. & Mary Bill Rts. J. 765, 791 (2017).
But, even if one were to assume for the sake of
argument that commercial speech is durable because it
is motivated by a desire for profits, that still would not
justify treating it differently than other types of
protected speech. First, commercial speech is not the
only form of expression that is backed by a profit
motive. “Many forms of public discourse are fueled by
an intense and hardy search for profits: motion
pictures, books, magazines, and newspapers, to
mention only a few.” Robert Post, The Constitutional
Status of Commercial Speech, 48 UCLA L. Rev. 1,
31–32 (2000) (citation omitted). If a profit motive
makes speech more durable—and therefore less worthy
of full First Amendment protection—then one would
expect restrictions on those varieties of speech to
receive a lower level of scrutiny too. And, yet, they do
not.
Moreover, it simply is not true that speech backed
by a profit motive is more durable than other forms of
speech. There is perhaps no more durable speech than
speech associated with religious beliefs. Throughout
history, individuals have deliberately risked

16
persecution and death to continue spreading their
religious beliefs. And political speech is not far behind.
Political dissidents have always been willing to
communicate their ideas at the risk of death as well.
The very fact that the American Revolution happened
proves this point. Yet, the extraordinary durability of
religious and political speech has never been used as an
excuse to reduce the level of First Amendment
protection afforded to those types of speech. It is
logically incoherent to evaluate restrictions on
commercial speech according to a lower level of
scrutiny based on its supposed durability.
The so-called “commonsense distinctions” between
commercial speech and other varieties of speech are
anything but. In reality, there is no principled reason
to be more permissive of restrictions on truthful, nonmisleading commercial speech than on restrictions of
other types of protected speech. Restrictions on
commercial speech should be evaluated under strict
scrutiny rather than the Central Hudson test.
III.

The Court should grant certiorari to hold
that strict scrutiny applies to commercialspeech restrictions and to end the
inconsistencies caused by the Central
Hudson test.

This case presents a prime opportunity to adopt
strict scrutiny for restrictions on commercial speech.
The Court seems to have already moved in this
direction, and now is the perfect time to say so
expressly.
The Court’s most recent free-speech
decisions have clarified that content-based speech
regulations—i.e., those that regulate speech based on

17
its communicative content—must be evaluated under
strict scrutiny. See Reed, 135 S. Ct. at 2226. And there
appear to be only two exceptions to this simple, easy-toapply rule: (1) regulations that require the disclosure
of certain factual, noncontroversial information in
connection with a commercial transaction; and
(2) regulations on professional conduct that
incidentally affect speech, such as informed-consent
requirements in the practice of medicine. See Nat’l
Inst. of Family & Life Advocates v. Becerra, __ U.S. __,
138 S. Ct. 2361, 2372 (2018); see also EMW Women’s
Surgical Ctr., P.S.C. v. Beshear, 920 F.3d 421, 424 (6th
Cir. 2019), cert denied, 140 S. Ct. 655 (2019) (upholding
Kentucky’s abortion informed-consent requirements).
Notably, restrictions on commercial speech are not
among those exceptions. Thus, it appears that the
continued application of Central Hudson would be
inconsistent with the Court’s most recent free-speech
jurisprudence. The Court should take this case to
clarify this point.
The Court should also grant certiorari to put an end
to the inconsistent results caused by the Central
Hudson test. The test has proven “very difficult to
apply with any uniformity.” 44 Liquormart, Inc., 517
U.S. at 527 (Thomas, J., concurring in part and
concurring in the judgment) (footnote omitted).
Because the test is an “inherently nondeterminative . . .
case-by-case balancing ‘test’ unaccompanied by any
categorical rules,” id., the typical end result is that
“individual judicial preferences will govern application
of the test,” id. (footnote omitted). Thus, it is hard to
predict the outcome of any given case.

18
Not only does the Central Hudson test produce
unpredictable results, but its overly malleable,
indeterminate nature has also created an atmosphere
in which states view themselves as having latitude to
subject commercial speech to restrictions that they
would never attempt to impose on other forms of
protected speech. This case is a perfect example. The
State of Washington sued the Petitioners for making
allegedly deceptive advertising claims about their
product, the energy drink known as 5-Hour
ENERGY®. See Living Essentials, LLC, 436 P.3d at
863. Even though no court ever found any of the
advertising claims to be false or actually misleading,
the Washington Court of Appeals nevertheless affirmed
the trial court’s imposition of more than $4 million in
fees and penalties against the Petitioners. See id. at
863–64, 876. The court reached this result by
redefining a key term in Washington’s Consumer
Protection Act. Washington’s Consumer Protection
Act, like practically all others, prohibits misleading
commercial statements.
See id. at 865.
The
Washington Court of Appeals redefined the term
“misleading” to include not just statements that
actually meet the well-known definition of
“misleading,”2 but also any statements that are not
substantiated to the State’s satisfaction prior to being
communicated.
See id. at 866.
Thus, under
Washington’s new rule, an entirely true commercial
statement can be punished as “misleading” if it simply
2

See, e.g., Smith v. Gen. Motors Corp., 979 S.W.2d 127, 131 (Ky.
Ct. App. 1998) (holding that the term “misleading” in the Kentucky
Consumer Protection Act has the same meaning as is “generally
understood and perceived by the public” (citation omitted)).

19
lacked—in the State’s view—adequate substantiation
before it was uttered.
By redefining the term “misleading” in this manner,
the State of Washington avoided having its conduct
evaluated under the second, third, and fourth prongs of
the Central Hudson test.3 See id. at 869. The obvious
problem with this is that it permits states to prohibit
whatever commercial speech they desire to prohibit
simply by redefining the term “misleading.”
Additionally, the prior substantiation rule improperly
subjects commercial speakers to a standard that is akin
a prior restraint by allowing speech to go unpunished
only if it is substantiated to the state’s satisfaction
before being communicated. See Alexander v. United
States, 509 U.S. 544, 550 (1993) (defining prior
restraints (citation omitted)).
Furthermore, it
improperly saddles commercial speakers with the
burden of proving the veracity of their statements
rather than requiring the government to prove that
they are false or misleading. See Illinois ex rel.
Madigan v. Telemarketing Assocs., Inc., 538 U.S. 600,
620 n.9 (2003). But, perhaps the bigger doctrinal
problem is that this result was essentially invited by
the lower level of protection afforded to commercial
speech coupled with the uncertain, indeterminate
nature of the Central Hudson test.
The latitude that Central Hudson gives for creative
reinterpretations of consumer-protection laws presents
recurring problems that this Court needs to address.

3

Even so, the prior substantiation rule fails the Central Hudson
test, not to mention strict scrutiny. See Pet. at 24.

20
For example, in Kasky v. Nike, Inc., the plaintiffs
attempted a novel application of California’s consumerprotection law against public statements that Nike had
made in defense of its labor practices. 45 P.3d 243, 247
(Cal. 2002). The California Supreme Court held that
the state’s consumer-protection laws could be applied
to Nike’s speech even though the speech addressed
matters of public concern and was communicated in the
midst of a prominent public debate. See id. at 262.
This Court granted certiorari, but subsequently
dismissed the writ as improvidently granted. In
dissenting from that decision, Justice Breyer lamented
that “[i]f this suit goes forward, both Nike and other
potential speakers, out of reasonable caution or even an
excess of caution, may censor their own expression well
beyond what the law may constitutionally demand.”
Nike, Inc. v. Kasky, 539 U.S. 654, 683 (2003) (Breyer,
J., dissenting). The same chilling effect will flow from
the Washington Court of Appeals’ judgment in the
decision below. And this chilling effect would not be
possible without the Central Hudson test.
The Court should grant certiorari to clarify once and
for all that restrictions on commercial speech are
subject to strict scrutiny—a standard that is easily
understood, easily applied, and consistent with this
Court’s recent free-speech decisions.
IV.

Applying strict scrutiny to commercialspeech restrictions will not inhibit states’
abilities to protect consumers.

Like Washington, the amici States protect their
citizens from commercial harm through a variety of
consumer-protection laws. This is a critical role of the

21
States, but it is a role that decisions like Central
Hudson suggest is in tension with a robust First
Amendment. That need not be the case. There is
ample room under traditional First Amendment
principles for states to prohibit false, misleading, and
deceptive trade practices, while allowing citizens to
benefit from “the free flow of commercial information.”
Va. State Bd. of Pharmacy, 425 U.S. at 763.
1. Every state has enacted some variety of
consumer-protection law like Washington’s that
prohibits false, misleading, and deceptive trade
practices. See, e.g., Ky. Rev. Stat. 367.170; Tex. Bus. &
Com. Code § 17.46(a). These laws serve important
interests, but that does not mean the protections of the
First Amendment should automatically be cast aside or
subjugated to those interests.
This Court has long recognized that “[u]ntruthful
speech, commercial or otherwise, has never been
protected for its own sake.” Va. State Bd. of Pharmacy,
425 U.S. at 771 (citations omitted). While not
categorically excluded from the Constitution, “false
statements ‘are not protected by the First Amendment
in the same manner as truthful statements.’” United
States v. Alvarez, 567 U.S. 709, 718 (2012) (quoting
Brown v. Hartlage, 456 U.S. 45, 60–61 (1982)). This
means the Government can restrict or even prohibit
false speech that causes harm to others for one’s own
gain. Id. at 723 (citing Va. State Bd. of Pharmacy, 425
U.S. at 771). Classic examples of such exclusion from
the ambit of the First Amendment include defamation

22
and fraud.4 But the Court has recognized others as
well. See Alvarez, 567 U.S. at 747–48 (Alito, J.,
dissenting).
So, even without Central Hudson, false or
misleading commercial speech should lack the ordinary
protections of the First Amendment. But this has
nothing to do with its commercial nature. False speech
has “no constitutional value,” Gertz v. Robert Welch,
Inc., 418 U.S. 323, 340 (1974), particularly when used
to “effect a fraud or secure moneys or other valuable
considerations.” Alvarez, 567 U.S. at 723 (citing Va.
State Bd. of Pharmacy, 425 U.S. at 771). Consumerprotection laws fit squarely into this paradigm. When
a state prohibits false, misleading, or deceptive trade
practices, those laws (to the extent they restrict speech)
restrict the kind of speech that already falls outside the
First Amendment. Categorizing it as commercial, and
assigning it a lower value because of that
categorization, does nothing more than enhance a
state’s ability to restrict speech that is not false or
misleading. And that is a dangerous proposition.
Even if false and misleading commercial speech had
First Amendment value, ordinary consumer-protection
laws satisfy strict scrutiny, which requires proving
“that the restriction furthers a compelling interest and
is narrowly tailored to achieve that interest.” Reed,
135 S. Ct. at 2231 (quotation omitted). States have a

4

Even where the Court has extended some protections for harmful
false speech—for example, in the context of defamation—it has
done so for the benefit of protecting truthful speech. See N.Y.
Times v. Sullivan, 376 U.S. 254, 279–80 (1964).

23
compelling interest in protecting consumers from
deceptive trade practices. See Sorrell, 564 U.S. at 579.
And consumer-protection laws are usually narrowly
tailored to prohibit speech that is actually false or
actually misleading. While this would not allow states
to redefine words like “misleading” as a means to
restrict speech, as Washington has done here, states
would be free to continue enforcing reasonable and
necessary consumer-protection laws against practices
such as false advertising—practices that actually harm
consumers who have been deceived.
2. It takes little imagination to see the benefits to
consumers that will flow from abandoning the Central
Hudson framework—a framework that puts the
Government in charge of what information consumers
will receive. This case presents a prime example of the
perils of allowing the Government to serve in such a
role.
For over fifty years, this Court has recognized that
consumers benefit from “the free flow of commercial
information.” Va. State Bd. of Pharmacy, 425 U.S. at
763. And, yet, Central Hudson allows for a barrier
between consumers and the information that they
might want before making choices in the marketplace.
So long as the Government can restrict commercial
speech without regard to whether the speech is actually
false or misleading, the Government can effectively
pick and choose what kinds of information consumers
will have when they decide how to spend their limited
resources.
The Court should not overlook the “long and sordid
history” of using commercial-speech restrictions to

24
protect the competitive advantage belonging to
incumbent market interests. Adler, supra, 25 J.L. &
Pol’y at 302–06. Consider this case as an example.
The State of Washington brought suit against the
Petitioners in part for claiming that their product
worked better than coffee—something that
Washington, the corporate home to several well-known
coffee companies, certainly has an outsized interest in.
And, to prevail on its consumer-protection claims,
Washington did not have to prove that the Petitioners’
claims were false or even that they were misleading.
Instead, Washington punished the Petitioners because
they spoke without first substantiating the truth of
their statements according to some sort of stateapproved level of scientific certainty. In doing so, it is
depriving consumers of information that not one person
had complained about. See Pet. App. at 9.
A better approach is to recognize commercial speech
for what is: speech. That will require states to meet
the high burden of strict scrutiny before restricting
commercial speech that is not actually false or
misleading, while still permitting the states to protect
their consumers from deceptive trade practices.
3. Finally, eliminating the Central Hudson test and
subjecting commercial-speech restrictions to strict
scrutiny will not affect states’ regulations requiring
certain mandatory factual disclosures in commercial
and professional contexts. The Court has recognized a
fundamental difference between commercial-speech
restrictions and factual-disclosure requirements,
holding that “disclosure requirements trench much
more narrowly on an advertiser’s interests than do flat

25
prohibitions on speech.” Zauderer v. Office of
Disciplinary Counsel of the Supreme Court of Ohio, 471
U.S. 626, 651 (1985). And the Court has recently
reiterated the vitality of that distinction in holding that
commercial-disclosure requirements and informedconsent requirements are exceptions to the general rule
that content-based speech regulations are subject to
strict scrutiny. See Nat’l Inst. of Family & Life
Advocates, 138 S. Ct. at 2372. Thus, applying strict
scrutiny to commercial-speech restrictions will have no
impact on informed-consent requirements and
commercial factual-disclosure requirements.
CONCLUSION
The Court should grant the petition for a writ of
certiorari.
Respectfully submitted,
DANIEL CAMERON
Attorney General of
Kentucky

S. CHAD MEREDITH
Solicitor General
Counsel of Record

BARRY L. DUNN
Deputy Attorney
General

MATTHEW F. KUHN
Deputy Solicitor
General

Office of the Kentucky
BRETT R. NOLAN
Attorney General
Special Litigation
700 Capitol Ave., Ste.118 Counsel
Frankfort, KY 40601
(502) 696-5300
Chad.Meredith@ky.gov
Counsel for Amici Curiae

26
ADDITIONAL COUNSEL
STEVE MARSHALL
Attorney General of
Alabama

MIKE HUNTER
Attorney General of
Oklahoma

LESLIE RUTLEDGE
Attorney General of
Arkansas

ALAN WILSON
Attorney General of
South Carolina

CHRISTOPHER M. CARR
Attorney General of
Georgia

JASON RAVNSBORG
Attorney General of
South Dakota

CURTIS T. HILL, JR.
Attorney General of
Indiana

KEN PAXTON
Attorney General of
Texas

JEFF LANDRY
Attorney General of
Louisiana

SEAN D. REYES
Attorney General of
Utah

LYNN FITCH
Attorney General of
Mississippi

PATRICK MORRISEY
Attorney General of
West Virginia

